GR-90-98-022
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF SACRAMENTO POLICE DEPARTMENT
CALIFORNIA
GR-90-98-022
MAY 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Sacramento Police Department (SPD), California.
The SPD received grants of: $1,985,665 to hire 23 sworn officers under Phase I;
$17,252,921 to hire 101 sworn officers under the Universal Hiring Program (UHP);
$2,441,184 to redeploy 66 sworn officer full-time equivalents (FTEs) into community
policing under the Making Officer Redeployment Effective program for 1995 (MORE 95); and
$9,401,500 to redeploy 282 sworn officer/FTEs into community policing for 1996 under MORE
96. The purpose of the additional officers under each of the grant programs is to enhance
community policing efforts.
In brief, our audit determined the SPD violated the following grant conditions:


- The SPD was unable to document the redeployment of 33 sworn officer/FTEs to community
    policing under the MORE 95 grant, resulting in unsupported costs of $1,702,797.
- The SPD failed to inform the COPS Program that the UHP funds would be used to retain
    23 sworn officers hired under the PHASE I grant. Consequently, the UHP award should be
    reduced by $3,928,883 and those funds should be put to better use by the COPS Program.
- The SPD failed to develop a plan to document the redeployment of 282 sworn officer
    FTEs for the MORE 96 grant. Consequently, the entire grant award, $9,401,500, is funds to
    better use until the SPD develops a plan to document the redeployment of 282 officer FTEs.


 
#####